No. 19-600

IN THE

Ouprente Court of the Entteb Otateo
JON KRAKAUER,
Petitioner,
v.
STATE OF MONTANA, BY AND THROUGH ITS
COMMISSIONER OF HIGHER EDUCATION
CLAYTON T. CHRISTIAN,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Montana

BRIEF FOR RESPONDENT IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,430 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 8, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

